WAIVER

Supreme Court of the United States

No. 20-780

Joe W. Aguillard ve Louisiana College
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court,

Please check the appropriate boxes:
Tense enter my appearance as Counsel of Record for all respondents,

© There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

oto a member of the Bar of the Supreme Court of the United States.

QO Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will he filed by a Bar memplféx-
Signature t -

Date: BAY-te ae
(Type or print) Name Steven M. bxevadnace—
Yr.

OMs, O Mrs. O Miss
Firm Gold t Weens, Bhsser, Snes Reade |
Address Q@ol Wlac Aa ther Ar. :
City & State Alevarcla Ub Zip TZ8e

rene 318 4S O49

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE 1S REQUIRED.

  

 

 

Ce:

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov, Have the Supreme Court docket number available.
